No. 20-18
IN THE

Supreme Court of the United States
ARTHUR GREGORY LANGE,
Petitioner,
v.
STATE OF CALIFORNIA,
Respondent.

CERTIFICATE OF COMPLIANCE
I hereby certify that I am a member in good standing of the bar of this Court and
that the Brief of Professor Steven Penney as Amicus Curiae in Support of the Judgment
Below contains 5,109 words and complies with the word limitation established by Rule
33.1(g)(xiv) of the Rules of this Court.
Dated: January 15, 2021

David Debold

